HHS/OIG - Audit, "Follow-Up Audit of the Medicaid Drug Rebate Program in
Idaho," (A-09-07-00064)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up
Audit of the Medicaid Drug Rebate Program in Idaho," (A-09-07-00064)
April 15, 2008
Complete
Text of Report is available in PDF format (704 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Idahos Medicaid drug rebate
program, we found that the State had implemented the recommendations from our
prior audit that related to its policies and procedures, segregation of duties,
and dispute resolution.  We also found that the State had established controls
over collecting rebates on single-source drugs administered by physicians.
Manufacturers may make their outpatient drugs eligible for Federal Medicaid
funding by entering into a rebate agreement with the Centers for Medicare &
Medicaid Services and paying quarterly rebates to the States.
Although the State did not implement the recommendation related to the accounts
receivable system, it demonstrated that it maintained a subsidiary accounts
receivable system at a sufficiently detailed level.  In addition, the State did
not implement the recommendation related to quarterly reporting and did not
fully implement the recommendation related to management oversight for
adjustments, dismissals, and writeoffs.
We recommended that the State implement internal controls to maintain sufficient
documentation to support the amounts reported on Form CMS‑64.9R and provide
management oversight for adjustments and dismissals of drug rebate funds.  The
State concurred with our recommendations.